Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





     HOSPITAL REPORTING

 OF ADVERSE DRUG REACTIONS





                 V.RVICES.




                             Richard P. Kusserow
                             INSPECTOR GENERAL
       '0


            lj
                                mL Y 1991
                 \'dla
                             OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector Oeneral (010), as mandated by Public Law 95- 452 , as
amended, is to protect the integrty of the Deparment of Health and Human Services ' (HHS)
programs as well as the health and welfare of beneficiares served by those programs. This
statutory mission is cared out through a nationwide network of audits, investigations, and
inspections conducted by three 010 operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The 010 also informs the
Secretary of HHS of program and management problems and recommends courses to correct
them.

                               OFFICE OF AUDIT SERVICES
The OIO' s Offce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examne the performance of HHS programs and/or its grantees and contractors in
caring out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Deparment.

                               OFFICE OF INVESTIGATIONS
The OIO' s Offce of Investigations (01) conducts crimial, civil , and admistrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrchment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions ,or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                   OFFICE OF EVALUATION AND INSPECTIONS
The OIO' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Deparment, the
Congress, and the public. The findings and recommendations contaned in these inspection
reports generate rapid , accurate, and up- to- date information on the efficiency, vulnerabilty, and
effectiveness of deparmental programs.

This report was prepared in the Public Health and Human Services Branch under the direction of
Emilie Baebel , Branch Chief. Project staff included:

Mary Beth Clarke , R. Ph.,   Project Leader                    W. Mark Krushat
Penny R. Thompson                                              Barbara Tedesco
Kathrn Pocock                                                  Linda Moscoe
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





     HOSPITAL REPORTING

 OF ADVERSE DRUG REACTIONS





                  ~ C;V.RVICES.
            ~t­

                                  Richard P. Kusserow
                                  INSPECTOR GENERAL
       '0


             lj   ol~\'dm
                                     OEI- 12- 90- 01000
                   EXECUTIVE SUMMARY

PURPOSE

The purpose of this study is to: (1) determine the extent to which hospital pharacists are
familiar with the Food and Drug Administration s Spontaneous Reportng System (SRS) for
reporting adverse drg reactions (ADRs); (2) determine the nature and frequency of hospitals
in- house ADR monitoring; and (3) identify any reasons why hospitals do not report ADRs to the
FDA.


BACKGROUND

While extensive testing is conducted on al prescription drgs prior to marketing approval from
FDA , not all adverse reactions are detected at this time, as some are extremely rare or occur only
in special populations. Consequently, it is only after the wider use that occurs after the drg is
marketed, which may include unapproved uses and different patient populations, that some
ADRs are detected. FDA collects adverse drg reaction reports from pharaceutical
manufacturers, medical professionals, postmarketing studies and the medical literature.
Pharaceutical manufacturers are required to report all ADRs, while reportng from medical
professionals is voluntar.

FDA undertakes many activities to encourage reportng by medical professionals, includig pilot
projects to increase physician reporting of ADRs and a task force to study hospita reporting.
This report provides additional information about in- house ADR reporting programs in hospitals
and hospital reporting of ADRs to FDA.


METHODOLOGY

Data for this survey were gathered by conducting a mail survey of 1260 hospital pharacy
departments randomly selected from the American Hospital Association s listing of hospitals in
the U. S. and stratified by size. Additionally, we conducted a literature review concentrating on
reports of hospita ADR programs appearng in the medical literature. Finally, we conducted
interviews with the Joint Commission on Accreditation of Healthcare Organizations and the
American Society of Hospital Pharacists to obtain their views on hospita reporting of ADRs.


FINDINGS

       Ninety- two percent of all hospitals know how to report adverse drg reactions (ADRs) to
       the FDA. However, 14 percent of small hospitals are unaware of the proper reporting
       procedure.
Overal, knowledge of how to report adverse reactions to FDA is quite high with less than ten
percent unaware of FDA' s system and how to use it. However, a significant difference exists in
the awareness level among hospitals of different sizes, with small hospitals much less likely to
be aware of FDA' s reporting process.

II.    Respondent hospitas are engaged in several aspects of ADR reporting; some activities
       are more commonly performed in medium and large hospitals.

Our survey respondents indicated that their hospitals are conducting several activities as par of
in- house ADR monitoring and reporting programs. These activities include collection of patient
information at the time of the adverse event, routine screening of patient medical records, and
training for hospital staff in how to detect and report ADRs.

Ill.   There are several factors affecting hospital reporting of ADRs to FDA.

A total of 51 percent of our respondent hospitals indicate that they reported no adverse drug
reactions to FDA in 1989. This response was more common among the small hospitals (68
percent) than the medium and large hospitals (42 and 29 percent, respectively). Regardless of
the accuracy of these numbers, it would appear that there are factors affecting ADR reporting to
FDA by hospitals.

               Hospitals indicate that they hesitate to report ADRs to the FDA when they are
               unsure that the drg caused the reaction.

               Fifty-seven percent of hospitals have policies in place requirng   approval by an
               additional hospital committee or deparment before an ADR is reported to FDA.


RECOMMENDATIONS

       To improve hospital reporting of adverse drg reactions, FDA should clarfy for      hospitals
       the role of causality assessment when reportng adverse drg reactions to FDA.

II.    FDA should evaluate the role of physicians in hospital reporting of adverse drug
       reactions.

Ill.   FDA should sponsor pilot studies to further study reasons why hospitals hesitate to report
       ADRs to FDA and develop methods to encourage ADR reporting by hospitals.


AGENCY COMMENTS

Within the Department of Health and Human Services, the Public Health Service (PHS)
provided comments to this report. The PHS concurred with our recommendations and were
generally favorable about the report.
                                          ...... ............ ...... ........ .... .......... .... .... .............. ...... ........ .......




                      TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION ......................................................................................................


       Purose.............................................................................................................. ..


       Background........................................................................................................ .


       Methodology...................................................................................................... ..


FINDINGS................................................................................................................ ..


RECO MMEND ATIO NS ...........................................................................................


AGENCY COMMENTS ..

APPENDIX A: Methodology and Statistical Analysis ........................................ A­


APPENDIX B: Detailed Comments on the Draft Report .......................................

                            INTRODUCTION

PURPOSE

The purose of this study is to: (1) determne the extent to which hospital pharacists are
famliar with the Food and Drug Administration s Spontaneous Reporting System (SRS) for
reporting adverse drg reactions (ADRs); (2) determne the nature and frequency of hospitals
in- house ADR monitoring; and (3) identify any reasons why hospitals do not report ADRs to the
Food and Drug Admnistration.


BACKGROUND

The Food and Drug Admnistration      (FA) defines an adverse drg reaction as the following:
        An adverse reaction is an undesirable effect, reasonably associated with the use of
       the drug, that may occur as part of the pharmacological action of the drug or may
       be unpredictable in its occurrence. (21 CFR par 201)

While extensive testing is conducted on al prescription drgs prior to marketing approval from
FDA , not all adverse reactions are detected at this time , as some are extremely rare or occur only
in special populations. Consequently, it is only after the wider use that occurs after the drg is
marketed, which may include unapproved uses and different patient populations, that some
ADRs are detected. To acknowledge this situation and capture important additional information
available after a drg s approval , FDA established the Spontaeous Reporting System. The SRS
acts primarly as an early waring system indicating a potential relationship between an adverse
reaction and a given drg. FDA may then determine if additional studies are needed to confirm
the adverse reaction. Eventually the information received through the SRS may be used to
revise product labeling and alert medical professionals of new serious reactions.

FDA receives the majority of ADR reports from pharaceutical manufacturers, medical
professionals, and to a lesser extent from postmarketing clinical trals and the medical literature.
Pharaceutical manufacturers are required to submit periodic ADR reports quarerly during the
first three years of marketing a drg and annually thereafter. Reports of serious adverse
reactions not listed in the drg s labeling must be submitted within 15 days, as well as increases
in the frequency of labeled serious adverse reactions. FDA defines a serious ADR as one
resulting in death , hospitalization , disability, congenital abnormality, or cancer.

Although voluntar, direct physician reporting of adverse drg reactions has been shown to be an
important contrbution to FDA' s postmarketing safety data. In a study conducted by Rossi and
Knapp, reporting by physicians and other medical professionals was shown to result in a higher
proportion of labeling changes based on the number of reports filed in comparson to reports
from pharaceutical manufactuers.
                                     1 Direct reporting also allows FDA to contact the medical
professional for additional information if necessar.
FDA encourages diect reporting by medical professionals through a varety of programs,
reminders, and educational materials. To encourage physician involvement, reporting forms are
mailed to all practicing physicians several times a year. Additionally, FDA has sponsored pilot
projects through several State health departments in an effort to increase community- based
physician reporting of ADRs. The Rhode Island project has included a mail surey to identify
barers to physician reporting and the distrbution of ADR reporting kits combined with
educational sessions to encourage FDA reporting. 2 FDA has also underten activities
encouraging reporting by hospital pharacists, including informational kits for hospitals
developing an ADR system and arcles in major professional jourals. Also, FDA has formed a
task force composed of representatives from several major hospitals to formulate guidelines for a
model hospital ADR program.

Additionally, new requirements have been established by the Joint Commission on Accreditation
of Healthcare Organizations (JCAHO). As a condition of accreditation , hospitals must have in
place or develop an in- house monitoring and reporting program for ADRs. The primar
objectives of these in- house hospital programs are priary improved quality assurance and risk
management so that optimal drg therapy is delivered to all patients. Additionally, these
programs can provide valuable information concerning new adverse drg reactions. Adverse
reactions of this type are of the greatest interest to FDA , since many of the adverse reactions that
hospitals wil collect information on are aleady known.


In light of FDA interest and the new JCAHO requirements hospita reporting of ADRs is worthy
of additional attention. This study provides basic information about hospital ADR monitoring
and reporting activities.


METHODOLOGY

Data were gathered from the following sources for this study.

First , to determne awareness and usage of FDA' s ADR reporting system and in- house policies
and procedures among hospitals , we conducted a mail survey of 1260 hospital pharacy
departments. Hospitals were selected randomly from the American Hospital Association s listing
of hospitals in the U. S. and stratified by size to ensure appropriate representation of small (less
than 100 beds), medium (100 to 499 beds), and large (500 or more beds) hospitals. Large
hospitals were oversampled at the request of FDA , because they have traditionally represented
the greatest percentage of ADR reports from hospitals overall. We received a total of 826 usable
surveys , resulting in an overall response rate of 66 percent. The survey results in this report are
primarly presented by strata and are not projected to the universe of all hospitals in the U.
since non-respondent hospitals in the stratum of small hospitals differed from our respondents.
(Additional details regarding respondents, stratification, weighting and response rates are
provided in Appendix A).

Second, to obtain additional information concerning hospital ADR programs, we conducted a
literature review concentrating on reports of hospital ADR systems appearng in the medical
literature. Third we conducted interviews with the Joint Commssion on Accreditation of
Healthcare Organizations and the American Society of Hospital Pharacists to obtain their
views on hospital reportng of ADRs.
                                    ............................
                                 ..................
                                  ......  ........................
                                       ..........
                                  ...~~~~~~ ~~~~~~~~~~~~~~   ~~~~ ......
                                                     ........ .........
                                                             ~~~~~~..... .... ,-.."...... .....

                                                              ............ "'""..................................................................................
                                 .............................................-.-.             .....
                                                                                                ......
                                                                                   .... ...... .-  .."..  ...,.....
                                                                                                          ~~~   ~~~ ~~~~ .......
                                                                                                            ........
                                                                                                             ........       ".."..
                                                                                                                             ......                  ~~~~~~~~~~~~
                                                                                                                                                               ~~~~~~




                                                                FINDINGS
        Ninety- two percent of respondent hospitals know how to report adverse drug reactions
         (ADRs) to the FDA. However,                                    14     percent of small hospitals are unaware of the proper
         reporting procedure.

Overal , knowledge of how to report adverse reactions to FDA is quite high with less than ten
percent unaware of FDA' s system and how to use it. However, a significant difference exists in
the awareness level among hospitals of different sizes. Only 85 percent* of small hospitals (95%
confidence interval (C.I.), 0. 799 to 0. 894) are aware of FDA reporting procedures compared to
96 and 98 percent of medium and large hospitals (95% c.1., 0. 931 to 0. 978; and 0. 957 to 0. 992),
respectively.

The majority of hospitals (62 percent) receive information on FDA's ADR system directly from
FDA. Other important information sources for hospitals about FDA's ADR system are
professional journals and professional and continuing education. Professional jourals are most
important as informational sources to large and medium sized hospitas. Similarly, educational
programs are significant primarly to large hospitals. Among respondents of all sizes,
pharaceutical manufacturers ' representatives are not a significant source of information on how
to report ADRs to FDA.



                Sources of Information Regarding FOAl s ADR System


     Directly from FDA
                                 Irr ttit                        ttI IrfrIfIrIffIIfffrtfr                               ttttttttttttttt


           Professional
               Journal


     Pharmacy school!
            Continuing
    education program


       Pharmaceutical
        Manufacturers
        Representatie


                         Total
                                                                    20 40
                                                                      ::tals                                                          als                  Small Hospitls
                                                                                                                                                             1 00 beds




 * One percent of small hospitals did not respond to ths question.
ll.     Respondent hospitals are engaged in several aspects of ADR reportng;          some   activities
        are more commonly performed in medium and large hospitals.

Our survey respondents indicated that their hospitals are conducting several activities as par of
in- house ADR monitoring and reporting programs. These activities include collection of patient
information at the time of the adverse event, routine screening of patient medical records, and
training for hospital staff in how to detect and report ADRs. A tota of 91 percent of the
respondent hospitals have some type of data collection form for reporting ADRs. Among
respondents, large hospitals (99 percent; 95% C. !., 0. 975 to 0. 997) are more likely to have forms
for collecting ADR information , than medium (94 percent; 95% C.I. , 0. 910 to 0. 966) or small
(85 percent; 95% C.       800 to 0. 896). Seventy percent of the respondent hospitas use
customized forms developed within the hospita for collecting ADR information.

Slightly less than one- half of the respondents (47 percent) indicated that in their hospital patient
medical records are routinely screened for signs of ADRs. Screening for adverse drg reactions
may include periodically reviewing the patient s char , screening medication orders as they are
received in the pharacy, and screening laboratory data.

Slightly greater than one- half of all the respondents offer some type of periodic training or
education for staff on how to detect and report ADRs. A greater percentage of large and medium
hospitals (60 and 59 percent, respectively; 95% C.I. 0. 553 to 0. 660 and 0. 535 and 0. 648) offer
periodic training for hospital staff in detecting and reporting ADRs compared to small hospitals
(40 percent; 95% c.1. , 0. 331 to 0.461). Training methods used by hospitals range from
traditional in-service lectures to innovative videotape presentations developed within the
hospita1.


llI.    There are several factors affecting hospital reporting of ADRs to FDA.

A total of 51 percent of our respondent hospitals indicated that they reported no adverse drg
reactions to FDA in 1989. This response was more common among the small hospitals (68
percent; 95% C. I., 0. 615 to 0. 740) than the medium and large hospitals (42 and 29 percent,
respectively; 95% c.!., 0. 365 to 0.479 and 0.238 to 0.337). Regardless of the accuracy of these
numbers, it would appear that there are factors limting ADR reporting to FDA by hospitals
(greater detail of this statistic is provided in the Appendix).

               Hospitals indicate that they hesitate to report ADRs to the FDA when they are
               unsure that the drug caused the reaction.

       Fifty-one percent of hospitals hesitate to report ADRs to the FDA because they are
       uncertan whether the suspected drg actually caused the adverse reaction. This
       hesitation is of particular interest in light of the fact that FDA does not require positive
       proof of causality as a condition to report an ADR. In fact, a single report is generally
       insufficient to determne a definite cause and effect relationship between a drg and
       given adverse event.
           Despite this, a majority of hospitas (74 percent) conduct follow-up to assess the
           likelihood of causality for at least all serious reactions. To assess causalty, hospitals may
           use several methods includig discontinuing and rechalenging with the suspected drg,
           application of one of several algorithms * , and evidence of similar reactions in the
           medical literature. Although discontinuing and rechallenging with the suspected drg is
           perhaps most useful , it may not be practical for paricularly severe reactions. Fifteen
           percent of hospitals responding to our surey rechallenge with the suspected drg to
           determne causalty. Use of algorithms solely is more common in large hospitals (22
           percent; 95% c.!., 0. 176 to 0. 267) as opposed to medium (13 percent; 95% C. I., 0. 086 to
             163) and small hospitals (4 percent; 95% C.I., 0. 015 to 0. 068).

           (* An algorithm is a formula which assigns numeric values to aspects of the adverse event which are used to
           predct the probability of a causal relationship with the suspected drg.

Appropriately, 66 percent of hospitals hesitate to report to FDA when the adverse reaction is
expected or not severe. This is consistent with the greater emphasis FDA places on the reporting
of new serious reactions. If all hospitals were to report all of their observed ADRs, FDA would
be overwhelmed with numerous reports with little significance. Other reasons hospitals mention
for hesitating to report to the FDA include lack of time (11 percent), reporting to the
manufacturer considered sufficient (8 percent), concern over legal liabilty (6 percent), lack of
forms (5 percent), and not knowing how to report (4 percent).



                         Reasons for Hesitating to Report ADRs to FDA

                                                                  Percentage of Respondents
                                                                      Small            Medium             Large
        Reasons for not Reporting                     Total           (.:100)         (100 - 499)         (500+)
                                                                     Hospitals        Hospitals        Hospitals
Reaction was expected/not severe
Unsure that drg caused the reaction                                                         52'
Do not have the time
Consider reporting to manufacturer
sufficient
Concern over legal liabilty 



Do not have forms (FA            form 1639)
                                                      Not              Not                 Not              Not
                                                   addititive        additive          additive *       additive * 


*Respondents gave one or more reasons
                Fifty-seven percent of hospitals have policies in place requiring approval by an
                additional hospital committee or department before an ADR is reported to FDA.

        In many hospitals the pharacy department may not have the authority to report ADRs to
        the FDA without approval or concurrence from the physician , commttees, or other
        departments within the hospital. The most frequently mentioned entity involved in ADR
        reporting is the Pharacy and Therapeutics (P & T) commttee. This committee , which
        often has a majority of physician members, is involved in the decision to report an ADR
        to FDA in 42 percent of hospitals. Similarly, concurence or approval by the prescribing
        physician is necessary in 25 percent of hospitals. Other commttees that are involved less
        frequently in the decision to report an ADR to FDA include Quality Assurance (13
        percent) and Risk Management (9 percent). Hospitals operated by the Veterans
        Administration (VA) are required to send reports of ADRs to the VA Central Office,
        instead of directly to FDA.


         Required Approval/Concurrence to Report an ADR to FDA

                                                         Percentage of Respondents
                                                             Small         Medium           Large
   Type of Approval/Concurrence               Total          (.:100)      (100 - 499)       (500+)
                                                            Hospitals      Hospitals      Hospitals
Pharacy & Therapeutics commttee
Attending/rescribing Physician

Quality Assurance commttee
Risk Management
No approval/concurrence required
                                              Not               Not            Not           Not
                                           addititive       additive *     additive *      additive
*Respondents gave one or more reasons




In hospitals where approval is required by the prescribing physician or physician dominated
committees, such as the P & T committee , ADR reporting to FDA may be subject to some of the
barers of physician reporting. For example, while our respondents themselves did not rate
liability concerns as a reason for not reporting to the FDA , several did note that it is a significant
concern among physicians. Additionally, a few respondents commented that required approval
or concurrence from Pharacy and Therapeutics or Quality Assurance Committees to report to
FDA can be quite difficult to obtain. One respondent indicated that in his hospital the Risk
Management Committee becomes anxious if ADRs are identified in patient discharge summares.
                      RECOMMENDATIONS

       To improve hospital reportng of adverse drug reactions, FDA should clarify for
       hospitals the role of causality assessment when reportng adverse drug reactions
       FDA.

The most important action FDA can take to improve ADR reportng from hospitals is to clarfy
the role of causality assessment. Uncertnty over whether the drg caused the adverse reaction
is the most significant reason why hospitals say they hesitate to report ADRs to FDA. Also , the
majority of medium and large hospitals regularly conduct follow up to assess causality for
serious adverse reactions. Oiven the difficulty of establishing a cause and effect relationship on
the basis of one observed adverse reaction , there is a great probabilty that hospitas are not fiing
reports that would be of use to FDA when analyzed collectively. FDA should develop some
method to diectly communicate with hospitals the need to report adverse reactions even when
definite causality cannot be determned.


       FDA should evaluate the role of physicians in hospital reportng      of adverse drug
       reactions.

Physicians and physician commttees are involved in ADR reporting in a significant percentage
of the respondent hospitals. While the full impact of their involvement cannot be quantified, it is
probable that physicians are in some way influencing ADR reporting. Any efforts undertaken by
FDA to further encourage hospital reporting of ADRs should take physicians into consideration.
Efforts targeted solely at hospital pharacists may not result in increased reporting to FDA if
physicians involvement is not taken into account.


HI.    FDA should sponsor pilot studies to further study reasons why hospitals hesitate to
       report ADRs to FDA and develop methods to encourage ADR reporting by hospitals.

FDA should take advantage of the current climate of interest in ADR monitoring and reporting
that exists as a result of the new requirement from the Joint Commission on Accreditation of
Healthcare Organizations that all hospitals develop in- house ADR programs. This period of
heightened awareness offers an excellent opportunity to furher explore the reasons why
hospitals hesitate to report ADRs to FDA and to find successful ways to encourage reportg.
Hospitals var in their approaches to setting up these programs so that ADR monitoring and
reporting are successfully cared out. Pilot programs would offer FDA the opportunity to
examine hospital programs in greater detail and to determne what activities might be undertaken
to increase reporting to FDA.
                     AGENCY COMMENTS

Within the Department of Health and Human Services, the Public Heath Service (PHS) provided
comments to this report. The PHS concured with our recommendations and were generally
favorable about the report. A detailed copy of the comments are provided in Appendix B.
                                                     NOTES

Rossi , A.c. and Knapp, D. E. Discovery of new adversy                   drg reactionis:   A review of the
Food and Drug Administration s spontaneous reporting system.                     JAMA 252:1030- 1033,
1984.

Scott, H. D. et al. Rhode Island physicians ' recognition and reporting of adverse               drg
reactions: Increased physician                   s parcipation in post-marketing sureilance wil lead
greater understanding of adverse drug reactions. 

                                                                  Rhode Island Medical Journal
70:311- 316,        1987.


Berr, L.L. et al.           Sensitivity       and specificity of three methods of detecting adverse drug
reactions.      Am J Hosp Pharm                45:1534- 1539, July 1988.

Morgan , S. A. and Frank , J. T. Development of a videotape on adverse drug reactions.
Am J Hosp Pharm 
  47:1340- 1342 , June 1990.
                                   APPENDIX A

  Methodological Approach

  The objective of this study was to determine the level of awareness of FDA' s adverse drg
  reaction reporting system among hospitas and to profile in- house ADR reportng activities in
  hospitals. Surveys were mailed to the Directors of Pharacy Services for each of the hospitals
  in the sample. Directions were given for the surey to be completed by the Director or some
  other appropriate designee (profie of respondents may be found in Table A). No attempt was
  made to eliminate Federal or miltar hospials from the sample, as these hospitals are also
  potential sources of ADR reports for FDA.


  Design Specifcations and Sample Selection

  The sample was randomly selected from the 1987 American Hospital Association s (AH)
  listing of hospitals in the U. S. The sample was stratified by size (defined as the number of
  licensed beds accordig to AH) into thee groups: small (less than 100 beds), medium (100 to
  499 beds), and large (500 beds and over). An equal sample was drawn for each strata, resulting
  in an oversampling for the stratum of large hospitals due to the smaller universe of large
  hospitals.

  A size of approximately 1260 hospitals assumed a 40 percent response rate and a 95 percent
  confidence interval that would be within 5 percent of the tre reporting rate , with the
  hypothesized reporting rate assumed to be 10 percent for the small and medium strata and 20
  percent for the large stratum. In fact, we achieved a higher response rate and a higher rate of
  reporting among the respondents. The precision of our results are therefore well within



represents
                                                                                            the
  parameters of the design.

  Eight weeks after the mailing date , 826 sureys had been returned to our office. This
  a total response rate of 66 percent. The following table displays the response rate by individual
  strata.



                              Response Rate by Hospital Size

    Hosoital Size (bv number of beds)                                          Response Rate
       Small(o:lOo)                                       217                        52%
        Medium (100- 499)                                 289                        69%
        Large (500+)                                      320                        76%
        Total                                             826                        66%
Non-Respondent Analysis

An importt consideration in surveys such as this tye     is the bias that may be introduced into
the results if the non-respondents are different than those that responded to the surey. To
determne the presence of any bias, we contacted by telephone a miimum of ten hospitals per
strata selected in the original sample that did not complete a survey. These non-respondent
hospitals were asked the following key questions from the survey: (1) Are you aware of how to
report an ADR to the FDA? (2) Did you report any ADRs to FDA durg calendar year 1989?
Finally, nonrespondents were asked why they chose not to paricipate in the surey.

Among medium and large hospitas answers did not differ from those of the respondent
hospitals. Nonrespondent small hospitals, however, difered significantly from those
parcipating in our survey. Approximately one- hal of the nonrespondent hospitas in the small
category did not have pharacy deparments. In these hospitals, we were unable to locate an
individual with knowledge of or responsibilty for ADR reporting. As our results may be
optimistic in the stratum of small hospitals we have chosen not to project our results to the
universe of all hospitals in the U.


Projected Number of ADRs

In the survey hospitals were asked to indicate the approximate number of ADRs they reported to
FDA durng the calendar year 1989. Respondents provided this information by checking the
appropriate range of numbers for the reports they sent in. In the table below is a projection
based on a representative number for each range, of the tota number of ADRs the respondent
hospitals should have reported to FDA in 1989. These numbers were then weighted to the
universe of each stratum to provide an estimation of the reporting from all hospitals in the U.
It is interesting to note from this calculation that while large hospitals are providing the greatest
number of reports per hospital , it appears that reports from medium hospitas may be constituting
the largest percentage of the reporting activity.
               Projected Number of ADRs Reported to FDA in 1989


                            Number of Respondent Mentions                    Total Projected Number
                                                                                ADRs Re orted to FDA
   Number of ADR               Small Medium Large                           Small Medium Large
        Reports                        499) (500+)
                               (0:100) (100-                                (0:100) (100- 499) (500+ )
 Respondents sent to         Hospitals Hospitals Hospitals Hospitals Hospitals Hospitals
     FDA in 1989
                                 147            122
                                                127             133         152.5                317.           332.
                                                                             22.                 157.           277.
          11- 20                                                                                   120            330
           ::20                                                                                    140            660
 Total (excluding 

                                213             285             317           210                 735             1600
        Answer

                                                                         rfi/frrrr fffir   ttI    ffjf(tft\(r ffrrrrftmrmrrrrr




 Calculated by using the midpoint of each interval, except for the :;20 category, where a value of20 was used.

2 Calculated by weighting the estimated number to the universe of hospitals by strata, as provided below:



                                        Small                   Medium                     Larl!e
               Universe                  3258                    3296,                      498
               Samnled                    420                    420                        420
                Weil!ht                   7571                    8476                     1.1857




                                                        A- 3

                                         TABLE A
                          Respondent Demographics

Survey Particioant Job Title                        Percenta2:e (n=826)
Pharacy Director. Associate. Assistant
Clinical Pharacist (drg information)
Clinical Pharacist (general)
Pharacist Supervisor
Sta Pharacist

Other
*inclutks Hospital Administrators and Nurses

Teachin2 Affiiation                                 Percenta2:e (n=826)
U niversitv   Affilatedlesearch
Communitvffeaching
Community /Non- teaching
Veterans Administration/Mlitar
No Answer



Financial Affliation                                Percenta2:e (n=826)
For Profit
Not for Profit/Chartv
Countv-operated
State-operated
Federally-operated
    APPENDIX 


Detailed Comments on the Draft Report
                                        &.                                                                               --..-
                                                                                                                      .. ,,:.,
                                                                                                                     . .. (-;) . 





          DEPARTMENT OF HEATH                HUMA SERVICES                               Public Health Service


                                                                                         Memorandum
              JUL I 5
Date

From        Assistant Secretary for Health


Subject     PHS Comments on OIG Draft Report " Hospital Reporting of Adverse
            Drug Reactions, "      OEI-12-90-0 1000

            Inspector General, 



            Attached are the PHS comments on the subj ect draft                                     report.
            con cur   wit h e a c h 0   f    the r e co mm end     at ion s   an d   h a ve   t a   ken 0 r   pIa n
            to take actions to implement them.

                                                           o. IV

                                                         Mason, M.            , Dr.


            Attachment

                                                                                                                      :: ;\1 rT
                                                                                                                      10
                                                                                                                                 :I!

                                                                                                               ..i
           PDIG
           DIG­
           DIG­
           DIG-
           AIG-MP
           OGC/IG

           EX SEC
            DATESE
       COMMENTS OF THE PUBLIC HEATH SERVICE ON THE OFFICE
  OF INSPECTOR GENERA (OIG) DRAT REPORT, " HOSPITAL REPORTING
      OF ADVERSE DRUG REACTIONS, " OEI- 12- 90- 01000, MAY 1991


General Comments


We found the OIG draft report informative and useful. Although
the report shows that knowledge of how to report adverse drug

experiences    (ADE) to the ood and Drug Admnistration (FDA) is
qui te high, FDA' s Center for Drug Evaluation and Research (CDER)
will continue to work for greater understanding and use of the

FDA system by all health care providers. Over the past several

years, CDER'                 prove all aspects of the system have

led to a significant increase in the annual numer of reports
               s efforts to




submitted-- increasing from 38, 854 in 1985 to 75, 230 in 1990.
CDER is committed to continue- its efforts in this area.

We share the OIG' s                        portance of hospital ADE

                              concerns about the

reporting.  Hospi tal based
                         s
                             health care
                            Spontaneous
                                          workers
                                         Reporting
                                                  make a significant
                                                   System, both

contribution to the FDA'
through direct reports to FDA and reports submitted to

manufacturers and then forwarded to FDA. CDER will continue its
efforts to assure that physicians and other hospital providers

are knowledgeable about the procedure for ADE reporting and

continue to encourage them to report suspected ADEs without

regard to causality assessment.


This OIG report refers to episodes of adverse reactions as

adverse drug reactions (ADR). Within FDA, these are known as
adverse drug experiences (ADE). The PHS comments follow FDA'
nomenclature.
OIG Recommendation

     To improve hospital reporting of adverse drug reactions, FDA

     should clarify for hospitals the role of causality

     assessments when reporting adverse drug reactions to FDA.

PHS Comment


We concur. CDER has already taken a                numer of steps to clarify
and promote its ADE reporting requirements to manufacturers and

health care providers.


In 1985 (amended in 1987), FDA clarified its ADE reporting

requirements as they relate to manufacturers (21 CFR 314. 80 and

21 CFR 310.  305).These regulations require manufacturer
reporting irrespective of any causality assessment and state:
           A report or information submitted by an applicant

          under this section (and any release by FDA that the

          report of infor.ation) does not necessarily reflect a

          conclusion by the applicant or FDA that the report

          or information constitutes an admission that the

          drug caused or contributed to an adverse effect.

          An applicant need not admt,   and may deny, that the
          report or information submitted under this section

          consti tutes an admission that the drug caused or

          contributed to an adverse effect" (21 CFR 314. 80 (1)).

FDA has also encouraged health providers to report adverse

experiences to the Agency if there is a " suspicion " that the drug
is related to the adverse experience. The Agency has discouraged

causality assessment as a prerequisite for ADE reporting in an

effort to be inclusive rather than exclusive.


In writing about reporting adverse experiences to FDA, non- FDA
sources have also helped educate health providers to report

suspected adverse reactions and have emphasized that a causality

assessment is net needed for reporting.

When hospitals request information on adverse experience

reporting, CDER' s Office of Epidemiology and Biostatistics

routinely sends a packet of information. This packet of
information was recently updated and specifically states:

           Please note that FDA is interested in all such events

          associated with a drug. Thus , causality need 
 not
          established before deciding to report an adverse drug

          reaction to FDA.


In sumary, CDER will continue to explain FDA' s position on

causali ty which is that the suspicion of a relationship between a

drug and an adverse experience is enough to initiate   reporting.
No causality assessment is required.

OIG Recommendation
     FDA should evaluate the role of physicians in hespi   tal
     reporting of adverse drug reactions.


PHS Comment


We concur. FDA plans to continue its efforts in this    area. For
some time, FDA has been concerned about physician ADE reporting.
For example, in an effort to understand physician behavior in

reporting ADE and to assess ways to Lmprove direct reporting of

ADEs, FDA initiated a contract research program through State

health departments in 1985.  Maryland and Rhode Island were
awarded the first two pilot test contracts to survey physicians'

existing attitudes and to design interventions to promote and

increase ADE reporting.

To investigate the feasibility of increasing ADE reporting

wi thin hospitals, a third pilot contract was awarded to
Mississippi in   1986. In 1987, Massachusetts and Colorado were
awarded contracts to use and build on the interventions

developed by the first three States. The program has been

successful in stimulating the reporting of ADEs by physicians.

Further, FDA staff have given numerous presentations and written

a numer of papers on physicians' ADE reporting.
Though we have long encouraged physician ADE reporting, we

also recognize that hospital reporting  is very complex with

many hospitals having several pharmacies and satellites, many

physicians and other health care providers and an intricate

infrastructure of departments. and commttees. Addi tionally, most
hospi talized patients are on more than one drug and any ADE can
be confounded by these drugs, disease and other factors.

Nonetheless, we maintain that hospital reporting strategies

should not be limi ted to any professional group. FDA continues
to encourage reporting from all health professionals.


OIG Recommendation
     FDA should sponsor pilot studies to furher  study reasons
     why hospitals hesitate to report ADRs to FDA and develop

     methods to encourage ADR reporting by hospitals.


PHS Comment


We concur in principle with the need for further study and

promotion but believe it should be incorporated within FDA'

current efforts rather than a separate effort.
FDA' s CDER shares the interest in learning more about reporting
patterns and practices and has a numer of targeted ongoing
acti vi ties which it believes will achieve this purpose. CDER is
continuing to learn about ADE reporting practices and patterns

from the Epidemiologic Cooperative Agreements, State Contracts,

and other acti vi ties.
The current ADE reporting contracts with the State Health

Departments in Mississippi, Rhode Island and Colorado indicate

the requirement for continual conduct- of educational and

promotional interventions geared toward increasing the quantity

and quality of ADE reports coming from hospitals.   Workshops such
as the June 1989 Rhode Island Workshop on ADE Monitoring in

Hospi tals have been held by all of the contractors. These
seminars include information on FDA' s goals and objectives for

ADE monitoring.

Two new cooperative agreements were awarded in May and June 1991

that relate to ADE monitoring and reporting systems.   The first
is based on a national network of clinical phar.acists that seeks

to harness the adverse drug event monitoring activities required

of hospitals by the Joint Commssion on Accreditation of
Heal thcare Organizations to create a systematic mechanism for
collecting comprehensive data on ADEs. The second proposes to
initiate routine safety surveillance of newly marketed drugs by

establishing a signal detection system in a large health

maintenance organization.


In sumary, we believe that FDA' s efforts fully satisfy the

intent of the OIG recommendation.


Technical Comments

     Executi ve Sumarv, Backaround, Fourth Line
     The report uses the word " untested"to inaccurately
     describe unapproved uses of marketed drugs. In order
     convey a more accurate meaning, we recommend that the word
      unapproved" be substituted for the word " untested.

2.   Introduction, Backaround, Second Paraaraph, Fourth Line

     Same as   numer 1   above.
